<html>
<title> - CREATING THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[Senate Hearing 107-1005]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1005

              CREATING THE DEPARTMENT OF HOMELAND SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON



                               __________

                             JULY 10, 2002

                               __________


  Printed for the use of the Committee on Environment and Public Works


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
83-715                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      one hundred seventh congress
                             second session
                  JAMES M. JEFFORDS, Vermont, Chairman
MAX BAUCUS, Montana                  BOB SMITH, New Hampshire
HARRY REID, Nevada                   JOHN W. WARNER, Virginia
BOB GRAHAM, Florida                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     CHRISTOPHER S. BOND, Missouri
BARBARA BOXER, California            GEORGE V. VOINOVICH, Ohio
RON WYDEN, Oregon                    MICHAEL D. CRAPO, Idaho
THOMAS R. CARPER, Delaware           LINCOLN CHAFEE, Rhode Island
HILLARY RODHAM CLINTON, New York     ARLEN SPECTER, Pennsylvania
JON S. CORZINE, New Jersey           PETE V. DOMENICI, New Mexico

                 Ken Connolly, Majority Staff Director
                 Dave Conover, Minority Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 10, 2002
                           OPENING STATEMENTS

Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................     7
Clinton, Hon. Hillary Rodham, U.S. Senator from the State of New 
  York...........................................................    13
Corzine, Hon. Jon S., U.S. Senator from the State of New Jersey..     6
Domenici, Hon. Pete V., U.S. Senator from the State of New Mexico     4
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     1
Smith, Hon. Bob, U.S. Senator from the State of New Hampshire....     2
Warner, Hon. John W., U.S. Senator from the Commonwealth of 
  Virginia.......................................................     9
Wyden, Hon. Ron, U.S. Senator from the State of Oregon...........     9

                                WITNESS

Ridge, Hon. Thomas, Director, Office of Management and Budget 
  Transition Team for the Office of Homeland Security............    10
    Prepared statement...........................................    32

                                 (iii)

  

 
              CREATING THE DEPARTMENT OF HOMELAND SECURITY

                              ----------                              


                        WEDNESDAY, JULY 10, 2002

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2 o'clock p.m. in 
room 406, Senate Dirksen Building, Hon. James M. Jeffords 
(chairman of the committee) presiding.
    Present: Senators Jeffords, Smith, Inhofe, Bond, Domenici, 
Corzine, Wyden, Warner, Clinton, and Carper.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. The hearing will come to order.
    First of all, Governor, I want to welcome you to the 
committee. We've had many excellent opportunities to work 
together in the past, and I'm looking forward to our 
opportunity under the circumstances that we have today.
    I want to share a little story of you and I when we were 
taxing our dairy farmers. I remember I went up to Pennsylvania, 
they were in tough times. You had one big farmer there that got 
up and said, I'll tell you how much I love farming. He said, if 
I win the lottery, I'm just going to keep on farming until it's 
all gone. I'll never forget that story. It was tough times.
    Governor Ridge. You'd have to be a farmer to really 
understand that joke.
    [Laughter.]
    Senator Jeffords. Anyway, I want to thank you and look 
forward to your testimony. We have come a long way since 
September 11, we have fought terrorism all over the globe, 
created and funded a new government agency and seen an 
outpouring of patriotism and resolve among Americans 
everywhere. We have taken great strides to protect ourselves 
from future terrorist threats, and we have come to realize that 
the Federal Government can do more by reorienting its 
counterterrorism efforts. I strongly believe that preventing 
future terrorist attacks is a critical responsibility of the 
Federal Government. That is why I support the idea of creating 
a new Homeland Security Department.
    But there are many unanswered questions about the 
President's proposal that I hope to explore here today with 
you. Chief among these is the role of the Federal Emergency 
Management Agency, known as FEMA, in the new Department. The 
events of September 11 prove that FEMA, with its primary focus 
on natural disasters, can respond to acts of terrorism. But the 
fact still remains that FEMA spends the great majority of its 
time and resources preparing for and responding to natural 
disasters. And I am deeply concerned about how this move will 
affect FEMA's responsibilities in the areas unrelated to 
terrorism.
    To protect this focus, I believe FEMA, similar to the Coast 
Guard and some other included agencies, would be a distinct 
entity within the Department with the agency's director 
answering directly to the President in times of disaster. I am 
not advocating that FEMA not be a part of the new Department. 
But I am advocating that FEMA remain a distinct entity within 
the Department to help preserve the focus of its mission.
    My concerns are not unfounded. Throughout the 1980's, FEMA 
focused mainly on cold war, civil defense preparedness. This 
focus left the agency ill-prepared to respond to several large 
natural disasters during the late 1980's and early 1990's. I 
still remember some of my Senate colleagues calling for the 
abolishment of the agency during that period of time.
    Over the last decade, FEMA has refocused its mission on 
mitigating the effects of, preparing for and responding natural 
disasters. By doing so, the agency has vastly improved its 
ability to coordinate Federal response and recovery efforts. 
Since FEMA's inception in 1979 and through the agency's 
successes and failures, this committee has worked closely with 
FEMA to help the agency respond to fires, floods and 
hurricanes. Today we know that our world has changed, and that 
FEMA's responsibility has changed as well. I support all 
efforts to ensure that we are prepared to respond to the 
terrorist acts.
    However, I remain committed to working with my colleagues 
on both sides of the aisle and prepare to prevent and to 
respond to natural disasters once the agency is included in the 
new Homeland Security Department.
    I want to thank you again, Governor, for coming here today. 
But I want to also let you know of my experiences with FEMA. As 
a result, I became chairman of the committee just 2 weeks 
before 9/11. And on 9/11, that day, I was there in 
communication with FEMA. And the following morning I went 
immediately to the Pentagon and saw how tremendously effective 
and efficient FEMA was with people coming to help from as far 
away as Nebraska.
    The next morning I went to New York City and met with FEMA 
there. They had already set up a most effective and efficient 
operation to assist the city of New York in its ability to deal 
with the problem. So what I want to be sure of is that when you 
have that kind of effectiveness that we don't do unnecessarily 
bureaucratic changes to in any way interfere with an already 
very efficient operation. So I just thank you for coming and 
now if you have a statement, I'd be certainly happy to hear it.
    But first of all, I want Senator Smith to have an 
opportunity.

  OPENING STATEMENT OF HON. BOB SMITH, U.S. SENATOR FROM THE 
                     STATE OF NEW HAMPSHIRE

    Senator Smith. Thank you very much, Mr. Chairman. Welcome, 
Governor, it's great to see you again. We appreciate all the 
work that you've done over the past several months. Little did 
you know how tough it was going to be. I guess prior to 9/11, 
you thought you were just going to coast through the remainder 
of your Governor's term.
    Governor Ridge. It was looking good, Senator.
    [Laughter.]
    Senator Smith. I for one want to say that I'm going to be 
supportive of the Department of Homeland Security. We realize 
there will be a lot of details to be worked out, but I think in 
the interest of national security, I believe this must be done. 
Certainly to coordinate and consolidate is absolutely essential 
if we're going to prepare against the terrorist threats that we 
face.
    There's been a lot of activity on this committee regarding 
people in many ways, Senators trying to help with legislation. 
Obviously we will be looking forward to your views on a lot of 
it. I introduced legislation last year to provide for better 
coordination, both horizontally within the Federal Government 
and vertically with the State and locals. But 2 weeks ago this 
committee passed a bill, as you know, authored by the chairman 
and myself to provide first responders with the resources 
necessary to meet our needs. This was a bill based on your 
first responder initiative, yours and the President's. You and 
your staff have been great in working with us and providing 
help with us as we're anxious to hear if you have any further 
thoughts or clarifications on the bill. We're obviously open to 
that.
    As you know, this committee does have primary jurisdiction 
over a number of functions that will be included within your 
proposal. And that's the reason why the chairman is having the 
hearing, obviously.
    There are two areas that I just wanted to briefly touch on. 
One was emergency preparedness and response and the other was 
infrastructure security. Two years ago, at the time when I was 
chairman, we passed the Disaster Mitigation Act of 2000, which 
basically updated the Stafford Act. Senators Inhofe, Graham, 
Baucus and I and others worked very hard on this law. We wanted 
to ensure that FEMA's disaster preparedness and response was 
the best it could be and that Joe Albaugh and his predecessor, 
Jamie Lee Witt, really turned the agency, FEMA, into an 
outstanding agency. Both were great, Albaugh is and Jamie Lee 
was a great leader in FEMA. I joined Senator Jeffords in New 
York days after 9/11 and saw first hand what they were doing 
there.
    There are a lot of questions and obviously we're all going 
to be looking for your response on these. Certainly with regard 
to infrastructure security, the safety of a lot of the Nation's 
infrastructure does fall under this committee. And whether it's 
water treatment plants, power plants, chemical plants, 
refineries, it's all under our committee. We're obviously 
looking for your input on that.
    And some on the committee have sought to expand the mission 
of a number of regulatory agencies to include security. I have 
some problems with that and I think others do. But it's 
possible that by the end of the year, we could have passed 
legislation to expand EPA's mission to include ensuring the 
security of water facilities, chemical plants and oil 
refineries. We obviously want to hear from you in terms of 
whether that's the right approach or not.
    And in conclusion, if we're going to have a Department of 
Homeland Security, what will be the operational role of the 
regulatory agencies and the role of this new department in 
providing infrastructure protection? That's the question. 
Should EPA continue to lead, be a lead for chemical and water 
security? If so, what should it be? What is the role of DHS in 
that? Or does it make more sense to have your agency as the 
lead with the regulatory agencies providing technical support?
    A number of questions, obviously. But we'll be looking to 
flesh these out with you and thank you for coming here today 
and I look forward to hearing your remarks on this historic new 
Department.
    Senator Jeffords. Senator Domenici.


 OPENING STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR FROM 
                    THE STATE OF NEW MEXICO

    Senator Domenici. Thank you very much.
    Mr. Director, I'm entitled to no preference. I am the last 
one on this committee. But I found out that this chairman 
followed the rule that if you get here early you get called on 
early. So I was here long before any of them and took my seat 
here, thought I was given a special desk even here today. They 
didn't have room for me.
    [Laughter.]
    Senator Domenici. In any event, I think it will be a fun 
committee for the rest of the year. I want to do just a couple 
of things with you.
    I have a two page, and I guess it's two pages triple 
spaced, of my assessment of how you ought to look at the 
national laboratories, the three major ones and the three minor 
ones, as you put this together. I think you have already had 
occasion to meet with the leaders of the three nuclear 
laboratories and perhaps all the others. And you understand 
clearly now that we don't need to go anywhere now to get any 
science, we don't need to go anywhere to get any advice to you 
about that kind of thing. You just have to decide how you're 
going to use these laboratories to help you.
    I surmise in this statement that the early comments that 
one of them would be picked to be the headquarters was somewhat 
in error, and you're going to use all three of the major 
laboratories, and you're looking for sort of an office at one 
of them, one of the three. Talk has been, there's been some 
talk of Livermore, then the talk has been maybe not.
    I would just suggest that you look carefully at what they 
do at the laboratories. Of the three, the only one that doesn't 
make bombs, at the core of making them, it's just an 
engineering laboratory, is Sandia, if that means anything. And 
I suggest that you take a look at that.
    But there are two other issues that I think are very 
important, and I think you have already clarified. I'd like to 
do it on the record. The U.S. Government has a little known 
entity that's nicknamed FLETC, Federal Law Enforcement Training 
Center. Very large one at Glencoe, Georgia, used to be a Navy 
base, and a medium sized one in Artesia, New Mexico, used to be 
a university. That's the sum total of the Federal Law 
Enforcement Training Center for America. We train almost all of 
the law enforcement officers that don't have their own home for 
training, thus saving a lot of money.
    Right now, today, believe it or not, at the Artesia FLETC, 
there are almost 800 United States men, 5 women, training to be 
air marshals. Believe it or not, it's already sitting out 
there, by it are three 327's, the only things gone from them 
are the engines. So the agents are to use them, the marshals 
use them all day long to train, using pistols like they will be 
using to guard out public. And they all live there.
    Now, it's got to grow. But in the meantime, I understand 
that when you get your office set up, your headquarters, 
Homeland Security Office, you are going to bring both those 
FLETCs within the jurisdiction, within your jurisdiction, is 
that correct? So the law enforcement training centers will be 
under you, not under the Treasury Department, if your plan is 
accomplished, is that correct?
    Governor Ridge. We had talked about that. That is still 
very much under discussion. There was discussion about bringing 
that it. That is initially where we thought it should be. But 
again, working with Congress and trying to get the will of 
Congress----
    Senator Domenici. I have been working a long time on this 
issue and I believe the decision is that. In the meantime, what 
you all have to do is decide where you're going to put the 
early money and get it ready. On that one, we are arguing where 
it should go. I think you will find it should go to FLETC and 
then be moved to the other one. But let's just leave that alone 
for a minute. One more, for just 1 minute.
    No, I think that's it for today. Thank you. You're doing a 
wonderful job, Mr. Director.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Domenici follows:]

Statement of Hon. Pete V. Domenici, U.S. Senator from the State of New 
                                 Mexico

    I have had an opportunity to review the President's proposal for 
homeland security, particularly as it relates to the Science 
&Technology (S&T) mission of the department and how our national labs 
should contribute to the cause of homeland security--and I maintain 
that they have much to contribute.
    The president's proposal certainly recognizes the capabilities of 
our national laboratories--but the manner in which the initial plan was 
developed, announced, and communicated to the Congress has led to 
substantial confusion.
    So let me try to clear the air as to what I believe the new 
Department needs in the way of Science and Technology.
    1. The president has proposed an Under Secretary to address the 
science, technology, and operational issues associated with Chemical, 
Biological, Radiological and Nuclear or CBRN threats.
    2. I would argue that the undersecretary's mission should be 
broadened to cover the entire S&T mission for the whole department, and 
the operational missions should be run by the other parts of the 
department.
    3. Certainly much of the focus will be on CBRN threats, as it 
should be--but there are other S&T opportunities and challenges that 
exist outside that area.
    4. That Under Secretary for S&T should be responsible for several 
things under him . . .

    <bullet>  Utilizing the R&D base at Health and Human Services 
Department---as the President suggests in his bill
    <bullet>  Performing the agriculture-related R&D--as the President 
suggests
    But there are several ideas that are left out of the President's 
bill . . .

    <bullet>  The Under Secretary needs a mechanism to tap into the 
full capabilities of the National Laboratories.
    <bullet>  He also needs a ``DAPRA-like'' organization that can 
rapidly procure technology for homeland security applications.
    <bullet>  Finally, I think he should also have a ``RAND-like'' 
think tank to support homeland security research through policy and 
systems analysis. This function was suggested by the National Research 
Council review.
    5. Thus, I think we should build upon the ideas that the President 
has suggested to fully support the important S&T missions of the new 
Department.
    6. As it relates to the National Laboratories, let me make a few 
more comments.
    <bullet>  Tremendous capabilities exist at all of the labs--much of 
it is at Sandia, Los Alamos and Livermore--but Oak Ridge, Idaho and 
Pacific Northwest have unique capabilities as well.
    <bullet>  Those capabilities should be fully utilized and managed 
by DHS from a location that is centrally located among those 
laboratories.
    <bullet>  The labs' work for DHS should be governed by several 
principles . . .
    <bullet>  The Secretary of HS should be able to task and fund the 
labs directly.
    <bullet>  Homeland security work should be done on an equal basis 
to the other important national security work at the labs.
    <bullet>  DHS should be able to access all parts of the laboratory 
for expertise--not just a carved out section.
    Senator Jeffords. Senator Corzine.

OPENING STATEMENT OF HON. JON S. CORZINE, U.S. SENATOR FROM THE 
                      STATE OF NEW JERSEY

    Senator Corzine. Thank you, Mr. Chairman. I too am pleased 
to welcome Governor Ridge, and compliment him on the tireless 
and fine work that I think you're doing in the Office of 
Homeland Security. I'm particularly pleased with how you've 
reached out to our State. From a number of conversations with 
our Governor, I'm under the impression and feel that there's 
been real attention brought to the grass roots of this problem. 
I compliment you for those efforts.
    I also want to acknowledge the efforts of Senator Lieberman 
and his recognition of the potential for recasting this debate 
in the direction that it is now taking. I thank him for that 
leadership. There is no more important issue before us than to 
make sure that we structure this right. I support it, will 
support it. Being an old business guy who's gone through 
mergers and acquisitions, any organization that puts together 
169,000 people and a $40 billion budget, more or less, you've 
got a heck of a task to make sure that that actually works in 
some way other than on sheets of paper, to develop a culture, 
to develop accountability in an organization of such size and 
do it in a hurry is one tough task. We may be better at in 
Government than we are in the private sector.
    But I only caution patience and certainty, methodological 
steps. Because it can be quite a task.
    I also want to echo some of the remarks the chairman made 
with regard to FEMA. I throw in Coast Guard with regard to 
that, in particular, because these are institutions that have 
tasks that are outside of just the homeland security area that 
have done outstanding jobs with relatively limited resources. I 
hope that as we integrated this we don't lose our ability to 
respond in the way that I think the chairman was speaking to, I 
certainly feel with regard to the Coast Guard.
    I have one particular issue that I have talked with 
committee members about quite a bit this year, and that is 
chemical plant security. And as you know, on your recent trip 
to the New Jersey-New York port, you fly into Newark airport 
and you will see oil refinery facilities, you will see chemical 
plant facilities and you will see a very vulnerable part of our 
infrastructure. And according to EPA data, there are 123 of 
these facilities where a worst case release of chemicals could 
threaten more than 1 million lives. And there are 700 
facilities where such a release could threaten more than 
100,000. It's a big issue.
    And it's a very personal issue for those of us who live in 
densely populated communities. While the legislation that I 
have been talking with the committee about had focused on the 
Justice Department and EPA, it's probably more logical that 
these elements be addressed in the Department of Homeland 
Security as it gets put together. I think it should be a 
priority. I don't think we, in the context of this merging, 
have much room for tardiness with regard to this issue. I hope 
that we can all work together, this committee and Senator 
Lieberman's governmental committee, as well as your offices, to 
make sure the plans actually are real that deal with these 
issues. Not because we're trying to burden industry, but 
because we're trying to protect our citizenry. I think it's a 
substantial problem that ought to be addressed.
    Again, you have my complete support in the direction you're 
moving. I'd like to talk about details as everybody else would 
. It's a remarkable task that you are trying to lead, and I 
hope that I can be a helping partner in that process.
    Senator Jeffords. Senator Bond.

  OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, U.S. SENATOR 
                   FROM THE STATE OF MISSOURI

    Senator Bond. Thank you very much, Mr. Chairman, and thank 
you, Director Ridge, for joining us today. As we mentioned 
earlier, we've worked together many years, and I right now 
don't really envy the position you're in. But it is a 
challenging and extremely important one.
    We and the Nation are greatly indebted to you for your 
service to get America back to its feet. I think the 
President's leadership on September 11 and since has reassured 
the Nation that we are doing everything possible to protect the 
health and safety of our people, and the sanctity of our 
borders, as well as our country. The President's bold action 
and now your responsibility continues with the most far-
reaching reorganization of the Federal Government in 50 years. 
This new proposed Department of Homeland Security should 
eliminate barriers between the Government's critical 
intelligence security functions. We could better protect our 
borders and our communities. I think the President's plan that 
you're supporting deserves the support of Congress.
    I hope we will not be slowed by politically motivated 
second guessing or by turf battles. We need to protect people, 
not turf. And speaking of turf, that turf includes not only the 
authorizing committees like this committee, but the 
Appropriations Committee. And I happen to be the sometimes 
chairman and sometimes not chairman of the VA-HUD Independent 
Agencies Committee, which includes, like EPW, both EPA and FEMA 
in its jurisdiction. I can assure you that as someone who might 
be tempted to fight to protect the turf, I am fully supportive 
and will be with you all the way in moving the FEMA functions 
into your new Department in whatever appropriations 
subcommittee you are blessed with. Let us hope that you do not 
have to go back to every single one of them because you'd be 
appearing before just about every subcommittee of 
appropriations. I hope it will be, for your sake, that it will 
be combined in one.
    I also support the President's plan to transfer DOJ's 
Office of Domestic Preparedness, the FBI's National Domestic 
Preparedness Office. We hope that you will soon have additional 
tools to accomplish your mission.
    The first responders legislation voted out by this 
committee last month includes language which was in my Urban 
Search and Rescue bill. The legislation provides $3.5 billion 
for first responders, including $160 million for urban search 
and rescue task forces. I happen to be a really strong believer 
in them. I think they have demonstrated not only their service 
in 9/11, but the potential that we can call on them in the 
future.
    The emergency workers that we have today are the 21st 
century equivalent of the Minutemen. For too many years, the 
Federal Government has given our local responders a dime for 
every dollar they need to be ready for and to respond to 
terrorist attacks, as well as normal problems. This legislation 
will fix that chronic lack of funding.
    Our public health and hospitals also need our support to 
respond to increased threats. Last year alone, 2,300 
Missourians died from infectious diseases. Same amount almost 
as were killed in the World Trade Center attack. So infectious 
diseases of the future may be the result of bioterrorism, and I 
will work to assure that you have the tools needed to fund 
anti-bioterrorism activities, and upgrades needed for State and 
local public health and hospital infrastructure. As a former 
Governor, you well know the importance of that public health 
infrastructure, whether it's for terrorism attacks or normal 
occurrences.
    Getting back to the Environment Committee, we are greatly 
concerned about protecting drinking water. I appreciated your 
joining the President and EPA Administrator Whitman last month 
on the visit to the water treatment plant in Kansas City. We 
all know that every American family depends upon clean and safe 
water. We depend upon water to fill our fire engines, put out 
fires, businesses depend upon water for their employees. We 
must make sure that the infrastructure to collect water makes 
it safe to drink and use and send out to every home and 
business is protected from an intentional attack.
    Likewise, we need chemicals like chlorine to clean our 
water and make it safe to drink. We depend upon chemicals like 
chlorine, anhydrous ammonia to make fertilizer to provide 
agricultural products. However, the Government makes public 
information which terrorist could use to target vulnerable 
chemical facilities for attack. I have a bill, the Community 
Protection from Chemical Terrorism Act, that will protect 
communities surrounding chemical facilities from having 
published on the internet and elsewhere a detailed how to do it 
program for terrorists to use in attacking a chemical facility. 
I'd be interested to hear your comments on that bill.
    Finally, we also have commercial nuclear power plants in 
Missouri. I live 25 miles away from one. These are heavily 
regulated, defended. We need to know how we can make them even 
more secure.
    We look forward to working with you. We applaud your 
efforts and will offer all of our support to make your job not 
perhaps an easy one, but at least an effective one. Thank you.
    Senator Jeffords. Senator Wyden.

  OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM THE 
                        STATE OF OREGON

    Senator Wyden. Mr. Chairman, I'm anxious to have questions. 
I know my colleague was here before me, so I think probably I 
should wait for him.
    Senator Corzine. I have spoken.
    Senator Wyden. Oh, have you spoken? All right.
    Thank you very much, Mr. Chairman. I want to also welcome 
my old colleague from the House, and in beginning express my 
thanks in particular to your people in the technology area. 
They have been working very closely with me, chairman, and the 
Technology Subcommittee particularly to mobilize the talent in 
the science and technology sector that we need and you and your 
office have been very gracious in helping us in that regard.
    There are two areas though that I do want to explore with 
Governor Ridge. I want to start with the question of whistle 
blowers as it relates to the Homeland Security Office, and what 
protection there will be for them. As we all know, whistle 
blowers can play a critical role in exposing mismanagement and 
wrongdoing. If it hadn't been for Colleen Rowley, who invoked 
the whistleblower provisions, we might not have known what had 
happened at FBI headquarters with respect to thwarting the 
field agent's efforts in investigating suspected terrorist 
Massaoui prior to September 11. I'm concerned about whistle 
blower protection that would be afforded those in the Homeland 
Security proposal. I think my first question to Mr. Ridge today 
is, I'd like----
    Senator Jeffords. The questions will come later. We're 
giving opening statements.
    Senator Wyden. Then I am truly out of step. I thought I was 
being recognized for questions, and I will wait my turn. Thank 
you, Mr. Chairman.
    Senator Jeffords. Senator Warner.

OPENING STATEMENT OF HON. JOHN W. WARNER, U.S. SENATOR FROM THE 
                    COMMONWEALTH OF VIRGINIA

    Senator Warner. I welcome you, Governor. I remember very 
well shortly after 9/11 the President had several members of 
the Senate down, I was representing the Armed Services 
Committee when he brought you in and we discussed the challenge 
and your responsibilities. I remember at that meeting in the 
cabinet room we discussed the possibility of having Congress 
step in and legislate. The President was pretty strong that he 
did not want that done at that time. But I sort of said to 
myself, that day will come. And now it's here.
    And I think you in a very responsible and effective way 
have carried on to date. I wish you well for the future and we 
will get this legislation through for a very simple, basic 
reason: the American public wants it and they want it now. And 
the Congress will provide it.
    So I'll look forward to the question period, and withhold 
any further comments I have at this time. Thank you.
    Senator Jeffords. Thank you, Senator.
    Governor, as you know, the one independent agency that 
would be entirely absorbed by the Department of Homeland 
Security is the Federal Emergency Management Agency. As I 
mentioned in my opening statement, I am concerned----
    Governor Ridge. We might as well go right to questions.
    Senator Jeffords. I'm sorry, I want to hear from you.
    Go ahead.

STATEMENT OF HON. THOMAS RIDGE, DIRECTOR, OFFICE OF MANAGEMENT 
 AND BUDGET TRANSITION TEAM FOR THE OFFICE OF HOMELAND SECURITY

    Governor Ridge. You're very kind, Mr. Chairman. I 
appreciate that. I appreciate the opportunity to spend some 
time with former colleagues. We're all public servants with the 
same focus and understand our mission and our collective 
responsibility to do everything we possibly can to secure the 
homeland. I'm grateful for the invitation to appear before your 
committee and spend this time with your colleagues.
    I want to reiterate personally the President's desire to 
work with the Senators in a bipartisan way. The initial 
reaction from both chambers and both parties has been very, 
very positive. We want to continue to maintain that kind of 
dialog. Both parties have expressed a commitment to this Act 
and we look forward to working with you through the end to its 
completion.
    As you know, the President has signed an executive order 
creating a transition planning office for the new Department, 
housed within the Office of Management and Budget. I appear 
before you today as the Director of this office. And I look 
forward to working with you in the future in that capacity.
    As members of this committee and Congress already 
understand, homeland security to be its most effective, must be 
a national effort. It can't just be limited to the Federal 
Government. I wish every American could see what I've been 
privileged to observe over the past several months. The 
dedication and hard work by men and women in both the public 
and private sector around this country, I get an opportunity to 
spend some time with them as they deal with the various 
challenges of homeland security. I spend time with political 
and community leaders in communities as diverse as Boston and 
Cincinnati, Orlando and Chicago, Winston-Salem and Salt Lake 
City. We're finding leadership everywhere. I think that's 
really the key, everybody is stepping forward to say, what can 
we do and here's how we think we can help.
    So I think America should take great comfort in the notion 
that it is not just the President and not just the Congress and 
not just people in the public sector, at the Federal level, but 
people at the public sector in the State and local level and 
the private sector and the academic world. There is a unity of 
effort that has been going on. I think one of the advantages of 
the new Department is we will be able to strengthen those 
collaborative partnerships. I think they are integral for us to 
maximize our protection for this country.
    The President believes that the creation of a single 
Department with a single, clear line of authority would not 
only improve our preparedness for a future attack but would 
help us prevent attacks before they happen. Let me just share 
with you a few comments as to how. The Department of Homeland 
Security is basically built around four different components. 
There is an emergency preparedness and response component that 
I know the committee has jurisdictional interest and personal 
interest. There is a border and transportation security unit. 
There is a science and technology research and development unit 
that deals with weapons of mass destruction counter-measures 
and finally, there's an information analysis and infrastructure 
protection unit.
    I would like to begin by just discussing the emergency 
preparedness piece of this new Department, Mr. Chairman. The 
President's proposed legislation requires the Department of 
Homeland Security to ensure the preparedness of our Nation's 
emergency response professionals, manage the Federal 
Government's response to terrorist attacks and natural 
disasters, and aid America's recovery. To fulfill these 
missions, indeed, this agency would be multi-tasked.
    The Federal Emergency Management Agency, which we know as 
FEMA, would become a central component in the Department of 
Homeland Security and its emergency preparedness and response 
efforts. The Department of Homeland Security would coordinate 
the Federal Government's disaster response efforts. It would 
oversee Federal assistance in the disaster preparedness 
training of first responders. It will consolidate grant 
programs for first responders and citizen volunteers currently 
scattered across several agencies.
    The Department would also manage certain crucial elements 
of the Federal Government's emergency response assets such as 
the strategic national stockpile of pharmaceuticals, and would 
be able to call upon the Department of Energy and EPA's nuclear 
incident response teams in crisis.
    Finally, the Department would integrate all Federal 
interagency emergency response plans into a single, 
comprehensive, Government-wide plan and ensure that Federal 
response personnel and the locals have the equipment and the 
communications capability they need. I must say that this 
particular feature, in talking to my former colleagues that are 
Governors, and many of the mayors, is very attractive to them. 
The ability of these local political units, these men and women 
that are providing leadership on this issues, to be able to go 
to one place as part of a plan to be able to access what had 
previously existed in several departments, access those dollars 
in one department, one department in response to an overall 
capacity building plan, is a very attractive feature from their 
point of view.
    Director Joe Albaugh and FEMA have done a terrific job, as 
you've mentioned, in maintaining FEMA as an all-hazard agency 
equally adept at preparing for, responding to and recovering 
from man-made disasters and acts of God. Americans saw this 
first hand on 9/11. More recently, they've seen it in response 
to the fires in Colorado and Arizona, and the floods in Texas. 
The Department of Homeland Security will maintain, and I 
believe strengthen, this all-hazard capability, this all-hazard 
capacity to respond.
    The Department will also continue FEMA's efforts to change 
our emergency management culture from a reactive one to a 
proactive one. Here the Department's other three components 
come into play. The Department will protect borders from 
terrorism and their deadly cargo, and monitor all visitors into 
this country. It will set national guidelines and conduct 
drills to counter weapons of mass destruction, manage the 
national pharmaceutical stockpile and develop nationwide early 
warnings systems against disease.
    Finally, for the first time ever, one department in the 
Federal Government will fuse the intelligence it receives from 
the FBI, the CIA and the other intelligence gathering agencies 
and match that against the vulnerabilities of our critical 
infrastructure. And depending on the match, depending on the 
credibility of the threat and the assessment of the 
vulnerability, be in a position to work with EPA or the 
Department of Energy or the Department of Agriculture to give 
specific directions as to the kinds of protective measures that 
need to be undertaken to reduce vulnerability from that 
particular threat.
    The synthesis of capabilities will allow us to focus on 
risk mitigation and prevention, not just response and recovery. 
It will not divide FEMA's capabilities, we believe, it will 
multiply them.
    The key to this effort is partnerships, partnerships across 
agency lines, between the public and the private sector, and 
vertically between the Federal Government and States and 
cities, counties and rural communities. We believe the 
Department of Homeland Security will help us build and 
strengthen those partnerships.
    We have called on States, we have called on the Governors 
and the territories to sit down with cities and counties as 
they develop a single, statewide anti-terrorism plan. We have 
emphasized certain fundamental goals be included. These include 
mutual aid agreements between neighboring communities and 
States, interoperability of communications systems, emergency 
credentialling to protect medical personnel from liability and 
crisis, public health systems that can handle mass casualty 
events, and state-of-the-art technology to aid and protect our 
first responders.
    For the first time, one Federal department will be 
empowered to help States achieve these goals. We have asked 
States and localities to coordinate their efforts and pool 
their resources. We think it's only appropriate that Washington 
do the same.
    The new Department will consolidate many of the homeland 
security responsibilities that are currently dispersed among 
more than 100 different Government agencies. In developing this 
proposal, the President sought the best fit of an agency's core 
competency with the mission of homeland security. Not always a 
perfect match, but a best fit. And I note that Director Albaugh 
and GSA Administrator Stephen Perry have strongly supported 
that approach in this proposal.
    In fact, I would share with you, a cabinet meeting in which 
the President announced his plan, Director Albaugh said, Mr. 
President, you came to Washington as a change agent, we're 
change agents, too. Otherwise, why are we here. I believe the 
Senators feel the same way. I believe they would acknowledge 
the need for change after 9/11. And certainly the commitment to 
working together to effect those changes has been real and 
positive. We've made great progress since 9/11.
    Only Congress can create a new cabinet department. I'm here 
today to convey personally the President's desire to continue 
to work with members to accomplish our mutual goal. The 
President appreciates the enthusiastic response from Congress, 
and is gratified by the congressional optimism about how 
quickly we can get this done. He's ready to work together with 
you in partnership to accomplish that task.
    This is our priority, it's your priority, basically it's 
our collective mission. We all want to get it done, we want to 
get it done soon, but we want to get it done right. We are all 
committed to those two priorities.
    All of us know that the threats are real. We know that the 
need is urgent. And working together, I think we all know we 
can succeed together in this enterprise. Thank you, Mr. 
Chairman, for the opportunity to share these brief remarks with 
you. I look forward to the questions.
    Senator Jeffords. Thank you for an excellent statement. We 
all look forward to working with you.
    Senator Clinton, I understand you have a statement you'd 
like to place into the record.
    Senator Clinton. I would, Mr. Chairman, thank you.
    Senator Jeffords. Without objection, so ordered.
    [The prepared statement of Senator Clinton follows:]

 Statement of Hon. Hillary Rodham Clinton, U.S. Senator from the State 
                              of New York

    Thank you, Mr. Chairman. And thank you, Governor Ridge for 
appearing before the Committee to discuss the President's proposal for 
a new Department of Homeland Security.
    The attacks on September 11 exposed our vulnerability within 
America's borders and the need for new thinking about ways to protect 
ourselves. We learned that we were, in many ways, unprepared.
    We have also learned that there is a greater need for more 
communication between the more than 100 agencies that both attempt to 
prevent attacks and also respond to attacks after they occur. An 
information-sharing bill I introduced, with Senators Leahy, Hatch, and 
Schumer back in October was designed to address this issue, as between 
among Federal agencies AND among Federal, State, and local homeland 
security and law enforcement entities
    The Administration's proposal for a new Cabinet agency, the 
Department of Homeland Security requires Congress to consider carefully 
whether this new Department will solve the coordination and 
communication problems that have plagued our homeland security 
apparatus.
    We now know firsthand what we are up against, and what we need to 
be prepared for in the future. We have seen the devastating impacts, 
and have been confronted by challenges we may not have anticipated.
    We need to learn from our experiences in the wake of September 11, 
and to make certain that in the future we have the capability to 
protect ourselves and--God forbid--be able to respond if need be.
    In New York, we have been constantly grappling with air quality 
issues resulting from the destruction of the towers--air quality both 
outside and inside buildings. Questions have lingered over what 
government entities are responsible for indoor air quality. There has 
been confusion over what standards should be used to best protect 
public health, and whether schools and other buildings have been 
adequately cleaned.
    On a related matter, I want to commend the Environmental Protection 
Agency for undertaking such a process and developing its own Lessons 
Learned report. This is a thorough and honest assessment, and provides 
significant insights and recommendations regarding the Agency's 
response capabilities.
    But the report raises some very serious questions, which is why I 
am asking that the Committee's staff review this report--and I 
recommend it to all of my colleagues as well. And it is my hope that 
the Chairman and Ranking Member will grant an oversight hearing, so 
that we, too, can learn from EPA's own experience in responding to the 
events of September 11.
    Based on what we learn, we need to act to ensure that issues 
outlined in the EPA's report are adequately addressed--whether through 
providing additional resources, taking administrative actions, or if 
need be--through legislation--perhaps the legislation we are here to 
discuss today. I am prepared to introduce free-standing legislation if 
necessary. And I am interested in hearing today from Governor Ridge as 
to how the Administration has responded to the findings and 
recommendations of the EPA report.
    In addition to the issues raised by the EPA's recent report, I have 
several concerns about the new Homeland Security Department that I hope 
will be addressed by Governor Ridge today. The new Department would 
have nuclear and radiological protection as a major focus. However, no 
NRC functions have been transferred in the Administration's proposal. 
As you know, the Nuclear Regulatory Commission regulates civilian 
nuclear infrastructure in the U.S., including security requirements. I 
look forward to hearing how the Administration views the new Department 
playing a role in nuclear reactor security.
    I have heard from local communities and first responders from all 
across America about the tremendous personnel, technical, and financial 
burdens they have borne since September 11. They did this even when the 
Federal Government didn't provide the resources to help them; they 
knew, regardless of the burden, what had to be done to protect the 
citizens in their communities. I hope the new homeland security 
department will work closely and in a coordinated fashion with our 
States and local governments and with our first responders across the 
country to ensure that we have the strongest homeland defense possible.
    Last fall, I wrote to Governor Ridge to request that he designate a 
point person in his office with responsibility for Northern Border 
issues. As the law enforcement functions of the INS are integrated with 
the border control functions of the Customs Service in the new 
Department, it is critically important that the new Department include 
a position with specific responsibility for Northern border issues.
    One issue that is not being adequately addressed in our post 9-11 
environment is how our government will address the psychological impact 
of actual or threatened terrorist attacks. Although the primary impact 
of terrorism is psychological, I am concerned that the proposed 
Department of Homeland Security lacks a clear focus on the mental 
health needs of our citizenry. I hope that Governor Ridge will explain 
how the Homeland Security Department will coordinate with the 
Department of Health and Human Services in order address the mental 
health needs of our Nation.
    Finally, I have serious concerns about the Administration's 
proposal to create a workforce that could be exempted from 
whistleblower protection and collective bargaining rights. We need to 
be able to recruit the best possible employees for this new agency and 
this legislation should not barriers to the recruitment and retention 
of talented individuals.
    Further, I have concerns about the Administration's bill exempting 
the new Department from the Freedom of Information Act. FOIA plays an 
important role in ensuring that there is adequate oversight of our 
government.
    Thank you, Mr. Chairman. I look forward to hearing to today's 
testimony from Governor Ridge.
    Senator Jeffords. As you know, the one independent agency 
that would be entirely absorbed by the Department of Homeland 
Security is the Federal Emergency Management Agency, which you 
have spoken about. As I mentioned in my opening statement, I am 
concerned about how this will affect FEMA's core mission. How 
will FEMA's core mission change if the agency is included in 
the new Homeland Security Department?
    Governor Ridge. Mr. Chairman, I will tell you that I am 
familiar from both personal experience as well as legislative 
experience with the FEMA. As a matter of fact, working with 
former Senator Stafford to help rewrite the Stafford bill, I 
think we were in the House together when it was done, I recall 
you were very supportive of that effort.
    But I also recognized way back then that their response to 
a couple of tornadoes that bounced around my congressional 
district was less than satisfactory. That's why Senator 
Stafford and I worked with our colleagues to make those 
changes.
    But since that time, as you pointed out in your opening 
remarks, FEMA has become a different agency. There has been a 
cultural change. Under James Lee Witt and under Director 
Albaugh, there have been very positive changes and people are 
very, very comfortable with the relationships they have with 
the FEMA agency.
    Mr. Chairman, I think it has the core competency and the 
expertise to take on the additional mission. And I believe they 
complement one another. Because the kinds of things that the 
new Department of Homeland Security would be working with FEMA 
to do in support of their mission has direct application to 
their traditional mission of responding to a natural disaster. 
If we improve the interoperability of their communications, if 
we make sure that there's testing and exercises so that all 
first responders show up in response to a terrorist incident, 
if the practice sessions are about terrorism, but you improve 
the collaboration and communication among the first responders, 
then whether they show up at a terrorist incident or a natural 
disaster, you've enhanced the capability to respond.
    So I think we take that the President has looked at FEMA, 
recognizes its enormous value, understands about 85, 90 percent 
of its mission is related to natural disaster recovery and 
mitigation, but also understands it has core competencies and 
relationships with State departments of disaster assistance 
center, has natural relationships with first responders, and 
many of the programs in the Stafford Act, the individual 
assistance grant, the small business loans, those kinds of 
programs are at play in New York City right now in trying to 
respond to some of those needs of that community, those 
citizens and those families.
    So I think the President believes core competencies, 
expertise, already a strong relationship with the States and 
Federal Government, already a great relationship with the first 
responders, let's make it a more muscular, robust agency. As 
you know, at his initiative and with your leadership, in excess 
of $3 billion would be going to the Federal Emergency 
Management Agency. If you improve their coordination and 
communication, their skill level, it's just a natural add-on 
and value added to their ability to respond to a natural 
disaster. So it becomes a very vigorous, robust, all-hazard 
response team.
    Senator Jeffords. FBI Director Robert Mueller has stated 
that the FBI would not be included in the Department of 
Homeland Security, because of the agency's many non counter-
terrorism responsibilities. FEMA also has significant non-
terrorism responsibilities. To preserve FEMA's primary focus of 
responding to natural disasters, I firmly believe that the 
agency, like the Coast Guard and the Secret Service, should 
remain a distinct entity within the new Department.
    Was this a consideration when the Administration crafted 
its proposal? And can you explain any concerns you may have 
with this approach?
    Governor Ridge. Well, I think it is the intention, Mr. 
Chairman, of bringing the full agency in and including, I 
think, the Office of Domestic Preparedness from the Department 
of Justice within the FEMA, to just bring the infrastructure 
and the leadership and make it a unit within the new Department 
of Homeland Security, and then building on that infrastructure 
that already exists.
    Senator Jeffords. I'd like to try to understand the 
procedure details of your proposal for FEMA. Currently, if an 
event occurs that is beyond the capacity and capability of a 
local community and the State to respond to, the Governor may 
request a major disaster determination. The Director of FEMA 
reviews the Governor's request and forwards the recommendation 
directly to the President. The President then decides whether 
or not to declare a major disaster, thereby authorizing Federal 
Government assistance.
    Using last week's flooding in Texas as an example, how 
would this process work under the new Department?
    Governor Ridge. Mr. Chairman, the question is a very 
appropriate one, a mechanical one. But underlying the question 
is, we need an emergency declaration quickly, how do we align, 
take FEMA, put in this new agency to make sure that we could 
turn around on the request. Right now, we don't view, we don't 
see any diminution in time to make the request to the Under 
Secretary virtually on the desk simultaneously with the 
Secretary of Homeland Security and forward that immediately to 
the President of the United States.
    So I'm very familiar with the procedure. I've made several 
applications as Governor myself. The new Secretary of Homeland 
Security I think would have to address, to your satisfaction, 
that fundamental principle to make sure there's no lag time 
between the period that the Under Secretary gets it and reviews 
it and the request being made to the President. I feel fairly 
competent we can make those kinds of assurances to you. If we 
need specific legislative language to get it done, we'd like to 
work with you on the language.
    Time is of the essence and speed is very important. I think 
that goes to the heart of your question. We don't want to put 
any bureaucratic road blocks in a quick turnaround and a quick 
decision.
    Senator Jeffords. Senator Smith.
    Senator Smith. Thank you very much, Mr. Chairman.
    Governor, Administrator Whitman recently, about 5 months 
ago, undertook a study, an internal assessment at EPA in terms 
of how one might be prepared to deal with an attack, to help 
determine EPA's strengths and weaknesses. Could you address 
what some of those strengths and weaknesses were, and how 
you're planning to address them?
    Governor Ridge. Yes. I think several of the Senators, 
including yourself, have commented publicly about that internal 
review. I think it's very appropriate, I think actually it's 
laudable and very important, once an incident occurs and once 
your team has responded, you go back and take a look at lessons 
learned. Because we have to continue to review both our 
capacity to respond, the timeliness of the response and the 
effectiveness of the response. So in that process, I think 
Governor Whitman realized that her agency was severely 
stretched in terms of communications capability, personnel 
capability and the like. Since that time, I believe she's built 
up, hired additional personnel, maybe as many as 75 additional 
people to enable EPA to respond to more than one or two events. 
And we do worry about simultaneous events, and we did have 
several on 9/11. I think there's been an enhanced training 
component.
    Looking to acquire and work with first responders about the 
interoperability of their communications, that was a serious 
problem in New York. Candidly, as we assess other metropolitan 
areas, it's a serious problem everywhere, the interoperability 
of communications. So I think Governor Whitman took a look at 
personnel, took a look at equipment, took a look at training 
and decided we need to do more, we need to do better, is in the 
process of doing that.
    I also think she's made a request in the 2003 budget, my 
recollection to expand its work, expand its ability to respond 
to disasters, take that disaster response mechanism. As you 
know, there is a national response team, 10 regional teams. I 
think there is a request for about $75 million so she can 
buildup that capacity.
    Senator Smith. In the proposal, the Office of Domestic 
Preparedness is moved out of Justice and into FEMA. At first 
blink, it seems to me to be the right thing to do, but there 
has been some criticism on that. Would you just elaborate a 
little bit on that?
    Governor Ridge. Yes. The Office of Domestic Preparedness, 
within the Department of Justice, has for the past couple of 
years, with bipartisan support of Members of the Congress, been 
doing some very good work with first responders, to include the 
law enforcement community. In an effort to consolidate that 
effort and outreach from the Federal Government to the first 
responders, and particularly to the law enforcement community 
in non-traditional law enforcement roles, we just thought it 
would be better to blend the operations so that again, first 
responders can take a look at one agency, one department for 
their support for training, exercises and the like.
     Again, we have reviewed this matter with Governors, we 
have reviewed it with mayors who all are very attracted to the 
notion that instead of going to four or five different 
departments to get emergency training and response money and 
exercise money and equipment money, they can go to one 
department, based on a statewide plan, and draw down funds 
consistent with their statewide plan. So that's the rationale 
for that. They do a good job. They move them in to take that 
ability, move it into FEMA, move it into the new Department of 
Homeland Security, additional personnel with a lot more money 
to train and work with first responders. That's the rationale.
    Senator Smith. I mentioned infrastructure protection in my 
opening statement regarding the Homeland Security Office. 
There's a lot of questions about who should have the primary 
responsibility for infrastructure protections. Many members 
have mentioned it, such as water treatment facilities and so 
forth. Would you briefly give us your view on where you're 
headed on that?
    Governor Ridge. It was interesting, Senator, because you 
and Senator Corzine basically alluded to it in your opening 
statements. As the President has submitted the proposal, this 
is the theory and in practice how we believe it would work. 
There is no single place in the Federal Government presently 
where someone can take a look at the threat assessments 
generated by the different intelligence gathering agencies and 
then take a look at the critical infrastructure that we have in 
this country, and 85 to 90 percent of it is privately owned.
    Then depending on the credibility of the threat and the 
assessment with regard to the vulnerability, then say to either 
that company, that economic sector, that community, whatever 
the potential target might be, the threat is credible, you are 
a very critical piece of this infrastructure, but we don't 
believe that the protective measures that you have, the 
security measures that you've enhanced, are the best means of 
dealing with this potential threat. And then once that 
assessment is made, work through the EPA with the water 
companies or the chemical companies, work through the 
Department of Energy, work through the Nuclear Regulatory 
Commission.
    So the collaborative feature of this Department would be 
one place we get the threat, match it against the 
vulnerability, make a determination whether the vulnerability 
is real, what we need to do about it, and then work with the 
respective agency to see that it gets done. We've had some 
interesting discussions, again informally, with the trade 
association and businesses that represent different sectors of 
the economy. I think one of the things that is very 
interesting, and a couple of them have actually volunteered, as 
we go about determining best practices and working on those 
protective measures, one of the first people we ought to move 
in to make sure that they're satisfied locally, whether it's 
the water facility or the chemical plant or whatever, one of 
the first groups of people we ought to bring in should be the 
first responders to help assess whether or not they believe the 
protective measures are substantial enough or not. Since they 
are going to be the first ones to respond, we think they ought 
to have a role there as well.
    Senator Jeffords. I want to point out there is a vote 
scheduled at 3:15. So hopefully we could be able to conclude by 
that time.
    Senator Corzine.
    Senator Corzine. I think you really have tried to address 
where I was going to go. But there have been a number of 
assessments with respect to the chemical plant, oil refining 
issues already established. I'm concerned about how we're going 
to use those assessments already in place, or are we going to 
have to do additional assessments. I do understand identifying 
and matching these off a sensible program. But there are some 
clear vulnerabilities that are identified by agencies over a 
significant period of time. In fact, if I understand correctly, 
EPA was about to come out with a proposal with regard to 
dealing with chemical plant facilities. For some reason it was 
withdrawn in June, or at least we are under the impression of 
that.
    How are you going to put together what is already in the 
public forum relative to how we get on with this? And as it 
relates to chemical plants, do you think there is a joint role 
between the new Department and EPA? And do you have a vision 
for that as we go forward?
    Governor Ridge. Senator, very appropriately you have 
identified one of the challenges that we have in this country. 
The fact is, we have a very diversified economy and our enemies 
look at some of our economic assets as targets. And clearly, 
the chemical facilities are one of them. We know that there 
have been reports validated about security deficiencies at 
dozens and dozens of those. As part of their ongoing work 
within the Office of Homeland Security within the White House, 
we've been working with an interagency group, primarily EPA but 
other agencies involved as well, and the chemical industry and 
other groups to take a look at overall security concerns, 
protective measures, look at best practices, try to set 
standards, and then work to see if frankly, once we decide what 
needs to be done, if in fact it's done.
    We're hoping to avoid, candidly, the need for legislation. 
We take a look and then talk to the conversation with some of 
the leaders of the different sectors of the economy. One, 
they've got a fiduciary responsibility to the communities in 
which they house these facilities to do everything they can to 
ensure their protection. They've got a responsibility to the 
men and women that work there. They've got a responsibility to 
their shareholders. We've talked to them about an enhanced 
responsibility of the private sector to take on the additional 
expense associated with increased security and increased 
protection.
    We are close to completion of that interagency process and 
I suspect one of the reasons we knew the EPA, we started 
several months ago, the EPA was working independently as it 
should. One of the reasons it's been slowed down is because of 
the work they've been doing with us. So that's where we are 
specifically on the vulnerability of chemical facilities in 
this country.
    Senator Corzine. One of the, sort of in between a statement 
and a question, one of my concerns is the lowest common 
denominator issue that can arise. It is quite possible that 
some chemical plant facilities or dangerous facilities would 
follow best practices on ongoing standards. We see that in 
financial reporting.
    Governor Ridge. Yes, we do.
    Senator Corzine. We also see significant elements of our 
economy that don't always follow the rules, nor are they always 
taking the public interest into full account. One of the 
reasons that I would ask your thoughts on why you don't think 
we need legislation in this area when in fact we don't always 
see a consistent pattern to the lowest common denominator. 
Therefore, the public can have concerns about whether these 
issues are actually addressed if we don't have statutory 
responsibility and statutory direction.
    Governor Ridge. Senator, I think your concern is certainly 
well founded. Because the vulnerability and the prospective 
damage done to people, life, limb, human damage, property 
damage, psychological damage, because of the vulnerability of 
our chemical facilities, is real. But having said that, there 
is also, I think, a different environment post-9/11, an 
acceptance of, I'm not going to say across the board, because I 
don't know yet, of greater financial responsibility from within 
the corporate community to enhance their security. They have a 
lot of reasons to do it.
    One of the interesting things that I think we should 
continue to work with you on, and one of the legislative means 
by which we might be able, maybe not legislative means, but a 
market oriented means by which we might be able to effect some 
of these changes, is working with the insurance industry to see 
that there's a differential. There are some discussions we've 
had with the insurance industry based on the recommended 
protective standards that EPA may put out there, saying to a 
chemical facility, these are the kinds of things that you need 
to do. There may be a variation on insurance rates as it 
relates to their willingness or their ability to effect those 
changes.
    But I would say to you, we'd like to avoid legislation, 
Senator, but we've got to see what happens. We've got to keep 
all our options open.
    Senator Corzine. I'm not sure what the downside of the 
legislation is if people are going to perform these roles 
anyway.
    Governor Ridge. Well, it really, and I am not equipped to 
tell you today the specific recommendations that are going to 
be made and whether or not they will be fully implemented 
across the board. I feel fairly comfortable in telling you that 
no one is interested in the least common denominator, and there 
has to be some kind of enforcement mechanism. We'd like to 
continue that conversation with you to see what the enforcement 
mechanism is. If we can do it without legislation, fine.
    But I do think, depending on what the recommendations are 
and the outcome and acceptance of those recommendations, we're 
not going to foreclose legislation. Maybe we have to use the 
stick rather than the carrot.
    Senator Jeffords. Senator Warner.
    Senator Warner. Thank you.
    I'm going to refer to this opening statement. Over here, 
you've got information analysis and infrastructure protection, 
telecommunications and cybersecurity. First, to comment on 
cybersecurity. Some 3 years ago, when I was chairman of the 
Armed Services Committee, I became quite interested in this 
subject and the fact that there are very few young people out 
there seeking the education to equip themselves to go into this 
complicated, highly technical field.
    So I drew up a piece of legislation, it eventually got 
through the Congress, it set up a program, sort of a first 
cousin to a GI bill. If the young person would commit to 4 
years of obligated service working with the Department of 
Defense as a civilian, or other agencies, I guess we got down 
to three in the final analysis, that we would fund fully their 
program. We got it through Congress and I was very pleased.
    Then all of a sudden, the appropriators cut it down to just 
20 some million dollars. Well, that was a bit disappointing, 
but I renewed the efforts the next year, and we finally got it 
up to double the amount of money, just that little bit. All at 
the same time that Congress was voting, now mind you, we got 
$20 million for this program, then I think it got up to $40 
million, Congress was voting $8 billion to $9 billion in Pell 
grants.
    So I hope the new Secretary begins to look at where the 
money is and put it behind, whether it's cybersecurity or the 
other desperately needed areas of education, to equip the type 
of people to come into your organization, not just now but in 
successive generation.
    Governor Ridge. I appreciate that, Senator. You should know 
that that is of concern. The advisor to the President for 
cybersecurity, Dick Clark----
    Senator Warner. He was behind this, too.
    Governor Ridge. Yes. We've had that conversation, and 
hopefully the conversation will lead to greater action down the 
road within this Department of Homeland Security.
    Senator Warner. Good.
    Governor Ridge. He sees that as a very unique educational 
niche, but it's also a critically important security niche. 
There just aren't that many men and women interested in going 
and getting the technical education around securing the 
internet. So we have a big gap there, we have to try to fill 
it.
    Senator Warner. But you give them a scholarship program, 
because after they fulfill their obligated service, there are 
plenty of jobs out in the private sector. So just a thought 
about it.
    Second, military bases, no direct reference in your 
document here to that. But CINCNORTH is a new command that we 
are creating here in the Congress. Will you be in tight 
coordination with that officer who will have at his command all 
the military assets necessary to respond to an attack on the 
United States here in the homeland?
    Governor Ridge. Senator, I think first of all, as we take a 
look at the reorganization effort, we think what Secretary 
Rumsfeld has recommended adds enormous value to the new 
Department of Homeland Security, to coordinate in advance some 
of the work it would do if it had to utilize Department of 
Defense assets. I think the relationship will not be from the 
Department of Homeland Security to the General directly, but it 
will be from the civilian level from the Secretary to the 
Secretary.
    But the fact of the matter remains that now that under the 
unified command plan you do have a North American command that 
we can sit down with and talk about how we use different assets 
under certain circumstances, it really adds a great deal of 
enhanced protection and ability to the new Department of 
Homeland Security.
    Senator Warner. Part of that will be interoperability of 
communications, I hope. You'll have to put a high level of 
effort there.
    I'm going to read from page three, again the same section. 
In short, the Department would for the first time merge, that 
means bring together all the parts, merge under one roof the 
capability to identify and assess threats to the homeland. Now, 
at present, some of that threat analysis is done in CIA, DIA, 
FBI. Are those components going to pulled out of those agencies 
and merged into yours? What does that word merge mean? Are they 
going to lose their capability and it be one structure only in 
Homeland Defense? Or will there be parallel structures?
    Governor Ridge. Senator, there would be no capacity within 
the Department of Homeland Security to collect this 
information. It is not a collection agency. The merger of the 
information or intelligence would be the reports and 
assessments from the CIA, the FBI and the other collection 
agencies as they relate to domestic terrorism. But the CIA and 
the FBI and the other agencies will continue their collective 
functions.
    Now of course, Customs, INS, other agencies that if 
Congress approves become part of the Department of Homeland 
Security, will be in the collection business. But we will, 
there will be no collection from the CIA or the FBI. They'll 
just send us reports or assessments.
    Senator Warner. I understand. But the analysis, merge under 
one roof the capability to identify and assess, assess means 
analysis, threats to the homeland. Supposing the director of 
the CIA has a set of facts which he shares fully with you. He 
has one opinion that that doesn't amount to a threat, say, that 
you have to issue a warning. You feel differently. The director 
of the FBI may have a somewhat different view. Are you the 
final arbiter of what's to be done?
    Governor Ridge. I think at the end of the day, Senator, 
it's really a very appropriate question. Because the President 
wants to retain within the Office of the White House an 
assistant to the President for Homeland Security to coordinate 
the efforts among the agencies. If it ever came to a point 
where there was an interpretive conflict where we had Homeland 
Security looking at the reports and assessments and differing 
from the CIA or FBI, I think it would be resolved in that 
fashion. Ultimately at the end of the day, we want to take that 
information to reduce vulnerabilities. They are using that 
information to reduce threats.
    My sense is that if our assessment of the information says 
we ought to move to reduce vulnerabilities, we should have our 
way. But if there is a conflict, obviously there's a mechanism 
within the White House to resolve it.
    Senator Warner. What is that mechanism again to be?
    Governor Ridge. Ultimately the tie breaker is the President 
of the United States.
    Senator Warner. But he could well be off somewhere. I 
understand the command and control there. But it seems to me 
you've got to act quickly.
    Governor Ridge. Oh, absolutely.
    Senator Warner. You could have legitimate disagreements. 
But it's important that it move swiftly, that we not have to 
all get in limousines and roar over to the White House and sit 
around a table. We've got to do it quickly.
    Governor Ridge. The time is of the essence, you're 
absolutely right, Senator. In my experience, since October 8 
when I was sworn in, just dealing in a personal way with George 
Tenet and Bob Mueller, one, there has been a unity of effort. 
There's been no disagreement as to what should be done or the 
application of the facts. But under those circumstances, I 
think you can well appreciate the fact that these men and women 
in this Administration or future administrations lean always 
toward security, because it's an enduring vulnerability and 
it's resolved in favor of doing something to make America safe.
    Senator Warner. My time is up. Take a look at that 
sentence. Because somehow, I understood it as you have now 
stated it in this hearing, but somehow this sentence, I began 
to be puzzled.
    Now, you do not deal with cybersecurity in this prepared 
statement for the committee. What is the basic document to 
which we go to refer for expansion of points you've made in 
here?
    Governor Ridge. Senator, I would be pleased to send you up 
a document that deals specifically with cybersecurity.
    Senator Warner. There are other items that are not covered 
here. Is it the President's proposal in the blue cover that 
came up, or has that been replaced by a fuller document?
    Governor Ridge. I think there is a fuller document, 
Senator, that talks about the cyber agencies that will be 
moving in, that we are going to recommend to be moved into the 
new Department. And it would be my responsibility to make sure 
that you get it today.
    Senator Warner. Thank you very much.
    Senator Jeffords. Thank you for very excellent questions, 
Senator Warner.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Governor, as you could tell from my earlier comments, I'm 
concerned about the whistle blower protections in the proposal. 
You have cooperated with me in a number of areas. I hope we can 
get some changes in this area.
    It was clear, for example, from what happened with Colleen 
Rowley that that was absolutely key to getting an urgent set of 
communications to the top of the FBI. I read the 
Administration's proposal on the Homeland Security Office to 
really be a rollback of whistle blower protections. It reads 
that the Secretary of Homeland Security could choose how or in 
effect whether someone would be able to get the legal 
protections that are available at other Federal agencies. I 
think we ought to be strengthening protections with respect to 
whistle blowers. I would just like to see if you are open to 
some changes on this. I sit on the Intelligence Committee. I'm 
anxious to work with you on the national security implications. 
But this is one of the best ways to make sure that the public 
isn't in the dark and that we protect national security.
    Governor Ridge. Senator, to your point, I would look 
forward to the opportunity to work with you again for a very 
positive clarifying language, gaining the results that we both 
achieve. And that is making sure that as we set up this new 
agency, and as it goes forward, men and women who have some 
ideas that they're eventually critical of how things used to 
be, and have a better idea of how things should be, be No. 1, 
be considered patriots all, because their mission is to do 
whatever they can to enhance security. I would tell you that 
earlier today, the President addressed about 3,000 men and 
women from the Federal work force. I had the opportunity to 
speak just briefly before the President and assured them that 
they will have that protection and I look forward to working 
with you and your colleagues to see to it that it's consistent 
with the protection they have enjoyed in the past.
    Senator Wyden. That to me is the bottom line. It seems to 
me at a minimum they ought to have the protections that are 
available to other Federal employees. If you read the proposal 
now, this certainly isn't the case, the way it reads today. We 
do need to work together in a bipartisan way on it.
    The other question I want to ask also relates to the 
public's right to know. That deals with the Freedom of 
Information Act exceptions in the legislation. Now, you heard 
me commend you and your office with respect to the work you've 
done with us in terms of technology. It's important we get the 
ideas from the business community in particular with respect to 
how to tackle this issue.
    But again, I think it goes way too far to create all these 
additional exemptions from the Freedom of Information Act to 
make sure that the public has confidence in what the Government 
is doing. Already there is a national security exemption from 
the Freedom of Information Act. I would just like to see for 
the record if we could work with you to again hone down these 
exemptions. Because I think it would be a bad message to be 
sending right now.
    Governor Ridge. One of the experiences we've had, Senator, 
dealing primarily with the private sector during the past 
couple of months, is their reluctance to share proprietary 
information with regard to their facilities, the security 
measures, a variety of other things. What we were looking for 
in drafting this legislation, and of course we want to work 
with you on it, is to provide a limited exemption for 
voluntary, for information that's communicated voluntarily 
about, they make their own self-assessments of their own 
facilities. It's not the kind of information you necessarily 
want to put on the internet. You don't necessarily want to show 
your own weaknesses.
    But we do feel that it's important, if we're to have a 
comprehensive look at our critical infrastructure we need those 
who are responsible, have ownership of that infrastructure and 
are responsible for its security as well to be able to share 
with us from their perspective, we may have a different point 
of view, we may have concluded they haven't gone far enough to 
respond to that vulnerability. But it is a limited exemption 
that we're looking for. Again, the President sent it up with an 
idea that we need to work with Members of Congress to address 
those concerns. We would welcome the opportunity to try to find 
language that satisfies your interest and the public's right to 
know, but also the President's interest and the country's 
interest in not giving the terrorists a road map to identifying 
vulnerabilities.
    Senator Wyden. I support that. I only want to note for the 
record, Governor, that the FBI, the head of the National 
Infrastructure Protection Center, says that the protections 
already exist to do what you're talking about. So we've got 
people in law enforcement who are already saying that the 
protections exist to get the information from the technology 
leaders, get the information from the business community, get 
the information about infrastructure. I just want to work with 
you so that we don't open up new loopholes. Because if the 
public is kept in the dark, if whistle blowers don't have 
existing protections, that's going to make it tougher for us to 
tackle the terrorists that you're going after. And I want to 
support you on it.
    Governor Ridge. We are going to make sure that the whistle 
blowers have the protection, and we're going to work with you 
to make sure that the information is volunteered from the 
private sector, the kind that should be protected. And in doing 
so, protect the broader right of the public to know.
    Senator Wyden. Thank you. Thank you, Mr. Chairman.
    Senator Jeffords. Senator Clinton, I am going to go over 
and vote and be back. We have another member that wants to 
participate. So I will exit temporarily and be back.
    Senator Clinton. Tell them that I'm coming, Mr. Chairman.
    Governor Ridge, I want to start by thanking you for the 
extraordinary cooperation that you've provided on behalf of the 
needs of New York. I greatly appreciate it and I look forward 
to working with you as we develop and pass this important 
legislation.
    I wanted to go back to a point that Senator Smith made, and 
that is the Environmental Protection Agency's report, which was 
first reported in the Daily News. And this lessons learned in 
the aftermath of September 11, 2001 I think is extremely 
instructive. I hope that we will be getting a full copy of it 
here in the committee and we will be able to hold a hearing 
about it. I commend the EPA and I have told Administrator 
Whitman that the kind of honest assessment which was undertaken 
by the EPA is exactly the right attitude. It should serve as a 
road map for what we need to address going forward.
    But it is a little bit daunting to read this honest 
assessment, because it states, among other things, that the EPA 
is not fully prepared to handle large scale NBCR attack, agency 
information, experience and equipment is insufficient to 
respond with confidence. Closer to home, with respect to our 
ground zero air quality experience, the report says, the 
dissemination of EPA's health related sampling results to non-
EPA front line responders was delayed for at least 2 weeks.
    I bring this up because I think that the challenges that 
the EPA has honestly laid out for itself are not only specific 
to that agency, but will be found to be faced by other agencies 
that you are about to merge into the Department, as well as 
others like the FBI and CIA that are staying outside. I'm 
wondering, since the EPA is not being merged, what are the 
plans for coordinating the specific functions that the EPA 
currently undertakes with the mission of the new Department? 
How will that be accomplished and what are your plans for 
making sure it is?
    Governor Ridge. As you know, Senator, the EPA again is one 
of those agencies that has many, many missions. We took a look 
at the EPA just briefly, but there are just so many other 
things that it does, felt that its primary mission was not 
homeland security. I think they respond to maybe 30,000 
chemical spills a year. But they do have a very important and 
prominent role to play with us, to play with the new Department 
of Homeland Security.
    One is the vulnerability assessment, one is the response, 
one is working with the sectors, the water, the chemical and 
the other economic sectors to develop standards of protection. 
And again, this could very well be formalized once the new 
Department is established by a memorandum of understanding or 
an executive order. But clearly, as we go about dealing with 
the vulnerability assessments and response mechanisms, I think 
there will be a very close collaborative working relationship. 
I can't define it more specifically than that at this date, but 
I expect that the new Secretary of Homeland Security would try 
to create in advance the kind of working relationship he or she 
would need in response to an event.
    Senator Clinton. And would it be fair to assume that that 
will be the same relationship you will have with the Nuclear 
Regulatory Commission?
    Governor Ridge. I think it's important because as was noted 
in the remarks earlier, the new unit, senator, that matches 
threats with vulnerabilities, will work with these agencies on 
the protective measures, and maybe look to these agencies to 
oversee that the protective measures are done. Working with EPA 
on the standards of protection for chemical or water plants, 
work with the NRC for standards of protection on the nuclear 
facilities we have around the country, work with DOE where 
appropriate.
    So I think it is the intent of the President that this is 
the unit that takes a look at the vulnerability of this 
information that's passed to this new Department by these 
agencies and to work with the private sector. Then you go back 
to those agencies, these are the standards, are they 
satisfactory to you, they should be part of the oversight and 
enforcement mechanism as well. I think that's the collaborative 
work that we anticipate.
    Senator Clinton. One of my concerns, and you and I have 
discussed this, Governor, is that our front line soldiers in 
this homeland security front are our first responders. We 
passed out of our committee the first responder legislation 
that the Administration had requested. I am still, however, 
concerned that we are not putting enough focus on getting the 
funds directly to the cities and the counties that are on the 
front lines. I understand completely the need for State 
planning. I respect greatly the role of Governors and former 
Governors, having a close relationship with one who served for 
12 years. So I know that there are a lot of functions that the 
State has to undertake.
    But I really believe that at the very least, we need some 
kind of formula that guarantees dollars end up in the hands of 
the people on the front lines. I also am very concerned that we 
don't, we're not giving enough flexibility. Just as the 
Department wants flexibility in the use of personnel and 
compensation levels, I think this Homeland Security money that 
goes to first responders also needs to be more flexible. 
Because as I've traveled around my State, the needs in Buffalo 
are very different than the needs in Watertown or in New York 
City. I believe that we should take that into account with the 
dollars that the Federal Government provides. I would hope that 
we can continue to look at that as a need that is not yet being 
addressed.
    Governor Ridge. Senator, I will tell you that you echo the 
concerns, the continuing concerns of our friends who serve as 
mayors and as county executives and Governor Carper and I, and 
you know from personal experience, sometimes there's a little 
tension between the State house and the local communities. I 
think we've got it worked out that a smaller percentage goes 
directly to the State house. I think the bill that passed out 
of the committee said a minimum of 75 percent should go to the 
local communities.
    And I understand why the mayors and the county executives 
and the police and the fire and emergency responders, in a 
respectful way, once they've participated in a plan, they've 
decided what their priorities are, they don't want that money 
channeled through the State so that the State legislature kind 
of unties the plan, goes back in and sets their own priorities 
rather than the local communities' priorities.
    So we've made a commitment to work with them and Members of 
Congress who have expressed the same concern, that once the 
bill is passed, once those dollars are out there, once we 
determine what that percentage is, that within a certain period 
of time, according to the plan, the money is filed right down 
to the local communities. They think it's a mechanical matter 
that we can work out. I know you have emphasized that on 
several occasions with prior conversations. I want to work with 
you to make sure we get the language to our mutual 
satisfaction. Because we've made the commitment, the President 
has made the commitment as well.
    Senator Clinton. The only point that I would add to that, 
Governor, and I am very grateful for your comments, is that the 
legislation so far prohibits use for these funds for 
compensation in any form. I think that's a mistake. I think 
that flexibility needs to be available, whether it's a finding 
by a Governor, a finding by a mayor that can then be held 
accountable.
    But the biggest problem we've got in our cities, and again, 
speaking for New York, that are in deficits, a State which is 
in deficit, made much worse because of the attacks on 9/11, is 
that we need funds that can be used to actually pay our hazmat 
teams, not just equip them and give them better communications, 
but make sure they are going to be out there and deployable.
    So again, I just would respectfully request that at least 
we provide permissive language. Right now it's prohibited. And 
I think that's a mistake. Because I think the flexibility that 
we want should at least be permissible. Maybe there has to be 
some request that goes up to the Department by the Governor or 
something, but some mechanism that can trigger that money to be 
used for personnel as well as other purposes.
    Thank you.
    Senator Jeffords. Thank you, Senator.
    Senator Carper. Governor Ridge, how's your time? Do you 
recall the date that you stepped down as Governor of the 
Commonwealth of Pennsylvania?
    Governor Ridge. Yes.
    Senator Carper. What date was that?
    Governor Ridge. October 5.
    Senator Carper. On what date did you assume your new 
responsibilities?
    Governor Ridge. October 8.
    Senator Carper. When did you first testify before a 
congressional committee subsequent to that?
    Governor Ridge. Senator, I would have to go back and take a 
look at the calendar. A couple of weeks ago. Before that, as 
you know, we were up here talking and consulting, but we 
weren't formally testifying.
    Senator Carper. You've been testifying a lot, though, 
haven't you?
    Governor Ridge. Senator, it's been a great opportunity to 
reacquaint myself with some of my former colleagues. The 
support has been, in both chambers, been bipartisan. So I'm 
happy to appear before the committee as well.
    Senator Carper. We old Governors get together for lunch 
about every month in the Senate dining room. And we invite 
another old Governor to come have lunch with us and talk about 
issues that are germane. Later this month we will be having a 
lunch with former Governor Whitman. And we'd welcome the 
opportunity to have a chance to break bread with you.
    Governor Ridge. I look forward to that, Senator. I hope 
that as we go about developing the new Department of Homeland 
Security that as a Governor, you could hope underscore the 
notion that as we try to build a Federal-State-local 
relationship, one of the things that I think is really critical 
is to develop an infrastructure where we get, the Governors by 
themselves since 9/11 are all much more engaged than they have 
ever been before on security issues. But in certain areas, they 
need to provide the visible leadership and be a very active 
part of the development of the strategy and the implementation, 
the homeland strategy. And to that end, encouraging the Senate 
and the House to accept the notion that some of this money, 
some of these dollars should be distributed according to a 
statewide plan overseen by the Governor but in consultation 
with local communities I think would be very helpful.
    Senator Carper. Since the Administration chose to endorse 
the notion of creating a department with a Cabinet secretary, 
and formally presented its proposal, you've had an opportunity 
to testify repeatedly and to share information and insights 
with us. And in addition, you've had an opportunity to hear 
from us, and questions and comments that have come along. Has 
that changed your opinion in any way, large or small, with 
respect to what the Administration had first proposed? Second 
half of the question, has your view changed with respect to 
maybe some of the elements of, say, Senator Lieberman's 
proposal, because of the give and take of the last several 
weeks that you've participated in?
    Governor Ridge. Senator, I think there have been, because 
of the opportunity to testify and the give and take, there have 
been some very mechanical problems that have been identified by 
Members of Congress. One thing I respect very much because of 
my 12 years on the Hill is that men and women in the Congress 
of the United States have built up certain areas of expertise. 
And their knowledge of these departments and agencies has just 
been built up over periods of time. So I think we've seen some 
very constructive suggestions as to how to better organize the 
chart that exists. I know presently pending there are some 
discussions with some of the congressional leadership about the 
alignment, about the Title V protections, about a variety of 
different things. And everybody's working toward the same goal, 
but it's been a good give and take.
    Senator Carper. When you and I served together in the House 
of Representatives, the reputation that FEMA enjoyed around the 
country was not a particularly good one. During the 8 years 
that President Clinton served and Jamie Lee Witt served as the 
head of FEMA, and to this date, FEMA has enjoyed progressively 
a better reputation. We had any number of natural calamities in 
my State. I remember being asked near the end of my second term 
as Governor, who was the Governor during the ice storm of the 
century? I said, I was. They said, who was the Governor during 
the blizzard of the century? I said, well, I was. They said, 
who was the Governor during the drought of the century? I said, 
I was. They said, who was the Governor during the storm of the 
century? I said, well, I was.
    He said, you know what I think? I said, no. He said, I 
think you're bad luck.
    [Laughter.]
    Governor Ridge. I was going to say I shared those same 
experiences, until you drew that conclusion. So I'll withdraw 
that.
    [Laughter.]
    Senator Carper. And in each of those instances, though, 
FEMA was there big time, to help us in Delaware and I'm sure to 
help you in Pennsylvania. And a concern that I have, and I'm 
sure it's shared by other Governors and former Governors, how 
do we do this organization drawing in FEMA and not cut the legs 
out from under FEMA for their ability to do the wonderful work 
that they're doing across the country? Particularly with 
respect to natural disasters.
    Governor Ridge. I think, Senator, it's precisely because 
not only has FEMA's image changed, but their performance has 
changed dramatically for the better, that the President would 
like to make them a part of the new Department of Homeland 
Security, to build on those core competencies. You and I were 
members of the House and we share the recollection that FEMA 
was not viewed as either responsive or effective or a terribly 
compassionate agency in the 1980's. You helped me rewrite the 
FEMA legislation in the 1980's, the Stafford bill, named after 
our colleague at the time.
    Since that time, because of the leadership of James Lee 
Wit, now Joe Albaugh, perception has been based on performance. 
I wish I could have gotten a little more money out of James Lee 
Witt during the blizzard. Did you get as much money as you 
wanted for the snow storm of the century? Because I didn't. But 
anyhow, you may have been more effective than I was.
    But other than that, the response, their turnaround time 
and their response and his physical presence was just 
automatic. They did a very good job.
    In my experience as Governor, and hopefully in yours, FEMA 
does have a relationship with your statewide disaster 
assistance center or whoever you've identified to coordinate. 
They do have a relationship with the first responders. They do 
planning and training exercises with that core group. So it's 
that competency and those connections that I think we ought to 
build upon, give them substantially more money. They're going 
to have ramp up their capacity not only in Washington but even 
more importantly in the regions and perhaps even in some of our 
local, our larger metropolitan areas, so that it's a permanent 
presence.
    But I think we build on that capacity. At the end of the 
day, Senator, if these training exercises prove to be as 
successful as I think they can be, if they get additional 
equipment, if the communications equipment is interoperable, if 
they spend more time together working on response plans for 
terrorism, if another manmade disaster or natural event occurs, 
they'll just be better equipped. So we really add value to 
their all-hazard mission by pulling in and beefing up their 
capacity to respond to a terrorist attack.
    Senator Carper. A related question, Delaware is a coastal 
State and we have a lot of people who, particularly this time 
of year, come to our State to swim in the ocean, to boat, to 
sail, to fish in the Delaware Bay or in the Atlantic Ocean. 
From time to time, they run into a storm, a boat breaks down, 
and they need to be rescued. The Coast Guard comes to the 
rescue. The Coast Guard also, in addition to that, does any 
number of things. They tend buoys, they protect the sanctuaries 
for horseshoe crabs off the coast of Delaware and New Jersey. 
They do just a wide variety of functions that have nothing to 
do with the defense of our homeland but are nonetheless 
important functions.
    Does it make sense for us to take the Coast Guard in its 
entirety, whether they're tending buoys, protecting the 
horseshoe crabs, towing people to safety whose boats have 
broken down, does it make sense to take all those functions and 
put them within this new Department of Homeland Security?
    Governor Ridge. Senator, I believe it does. Because many of 
the people and many of the platforms that they use to perform 
those other missions have dual or triple, have multiple use. 
Earlier today I met with several previous commandants of the 
Coast Guard who are in support of moving it to the Department 
of Homeland Security. But they raised several issues, they said 
there ought to be a couple of conditions to moving the unit 
over. One, they said you have to move it all over. Because the 
men and women are multi-tasked, and I know your experience and 
my experience with them was very positive. They do a lot of 
different things and they do them very, very well.
    They said they had to make sure we didn't lose their 
responsibility to the Department of Defense. They are part of 
our defense structure. And that mission should remain an 
integral part of their training mission as well. Third, they 
said they need to be adequately funded. And I think the 
President recognizes that because of the enhanced security 
mission, along with the fisheries, the emergency rescue 
mission, you're not familiar with it in the Chesapeake Bay or 
in Delaware, but the ice breaking mission on the Great Lakes 
and a few others.
    Senator Carper. Up around Erie?
    Governor Ridge. Yes, sir, you've identified it. That they 
have many tasks, so we have to built up capacity. They have to 
get more equipment, they have to get more people. In the 
President's 2003 budget, they have the largest single increase 
they have ever received. I think it is a way ahead for future 
enhancement of their capacity.
    So I think yes, they should, I agree with the commandants 
that it ought to be under all those conditions. And the plan 
reflects that.
    Senator Carper. If I could, Mr. Chairman, one last 
question. We reorganized to some extent Delaware government. I 
think the year before, one of our other committees, I think 
Government Affairs, I may have mentioned that you reorganized 
all or a portion of the government of Pennsylvania when you 
served as its chief executive. We did so in the hopes of 
achieving not defending our homeland, we were looking for 
efficiencies. We were looking for ways to offer better service 
to the people of Delaware and to provide good or better service 
at the same price or less cost to taxpayers.
    In this discussion, as we attempt to create this new 
Department, is there any focus at all on how do we do as much 
or more without spending a huge amount of money more than we 
need to?
    Governor Ridge. Well, I think you raised a very important 
element in our collective efforts to see to it that this new 
Department maximizes every dollar that the taxpayers send and 
makes best use of the personnel that are there. I would say to 
you that just preliminarily, during the transition process, 
we've taken a look at some of the IT budgets. So if you bring 
in INS and you bring in Customs and you bring in the 
Transportation Security Administration, there are literally 
hundreds of millions of dollars out there, actually it's in 
excess, it's billions of dollars over a period of time, that if 
we develop the right kind of technological architecture, and 
the question, it's a very controversial piece of the 
President's proposal.
    But their Secretary, the President has requested that the 
new Secretary be vested in transfer authority, so that if you 
can realize some savings by consolidating technology, to be 
able to take that X number of dollars, several hundred million 
dollars and maybe if you need more Customs agents, if you need 
more personnel, you need different kinds of technology 
elsewhere, that you will at least have that kind of flexibility 
internally once you've identified the redundances, eliminated 
them, generated some savings, to be able to use that and 
transfer those dollars around the Department. That is one of 
the more controversial features, as you can well imagine. And 
we're just hoping we can convince particularly the 
appropriators to make sure that this Secretary and his team 
have the ability to maximize the use of every dollar, that if 
they realize some savings, they can move some things around.
    Senator Carper. Mr. Chairman, maybe a question for another 
day, not this day, but a question for another day is, when all 
is said and done and we finish our work as legislators and put 
a bill on the President's desk and create this new Department 
and go about assembling it, at the end of the day, how will we 
know that what we've done has been successful. That's one that 
I ask you to think about, and next time we're together, I serve 
on five committees, and my guess is you'll testify before all 
of them.
    Governor Ridge. I'll be prepared, Senator.
    Senator Carper. Good to be with you. Thank you.
    Senator Jeffords. Well, thank you, Governor.
    I just have one, maybe two questions. The proposal from the 
Administration does not speak clearly on the issue of the 
preemption of State Freedom of Information Acts. Would you 
oppose preemption of the State Freedom of Information Act?
    Governor Ridge. One of the things we're working on within 
the Office of Homeland Security, and this bears further 
conversation with you and your colleagues, is trying to develop 
model legislation that all Governors can deal with with regard 
to Freedom of Information needs that we all have. And I think 
if we did that, we would be satisfied. Governor Carper and I, 
as other Governors have done, from time to time have taken 
model legislation that affected all of us.
    Right now, we're trying to work with Governors on this very 
issue as it relates to their States and as it relates to the 
issue of preemption. And candidly, I haven't been back to talk 
with them to see where these discussions have taken us. But I 
would like to have that conversation with them and report back 
to you to give you a very specific answer to your question.
    Senator Jeffords. I would appreciate that.
    Just one final thing. I still have some real concern in my 
mind that exists that removing FEMA and moving it into a 
situation that seems to have failed in the past to have worked, 
and then 9/11, I think as we all understand now, was the lack 
of accurate information being utilized to hopefully preempt 
what happened. That was also under previous history problems 
that had existed.
    So I just had deep concern about taking FEMA from the place 
that it has worked so well and done such a tremendous job, both 
on 9/11 as well as all of the natural disasters we've had that 
I really strongly am concerned about the movement out of the 
present situation. I just want to leave that with you, and I'm 
sure you understand that.
    Governor Ridge. I do.
    Senator Jeffords. But other than that, do you really want 
to be the Secretary?
    Governor Ridge. That's the final question that will have to 
wait to be answered at some other date, like Senator Carper's.
    [Laughter.]
    Governor Ridge. That's the President's call, not mine.
    Senator Jeffords. Yes, right. Well, it was a pleasure to 
work with you 20 odd years ago, and it's a pleasure now.
    Governor Ridge. It's good to be back with you, Senator. 
Thank you.
    Senator Jeffords. So I look forward to that opportunity.
    Governor Ridge. Thank you.
    [Whereupon, at 3:48 p.m., the committee was adjourned, to 
reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]
 Statement of Governor Tom Ridge, Director of the Transition Planning 
             Office for the Department of Homeland Security
Introduction
    Chairman Jeffords, Senator Smith, and other distinguished members 
of the Environment & Public Works Committee. It is an honor to be here 
today to explain why I believe the Senate should support the 
President's proposal to establish a Department of Homeland Security. I 
also look forward to responding to your questions and listening to your 
views.

The President's Proposal
    On June 6, 2002, President Bush addressed the Nation and put forth 
his vision to create a permanent Cabinet-level Department of Homeland 
Security. On June 18, 2002, I delivered to the Congress the President's 
proposed legislation for establishing the new Department. This is an 
historic proposal. It would be the most significant transformation of 
the U.S. Government in over a half-century. It would transform and 
largely realign the government's confusing patchwork of homeland 
security activities into a single department whose primary mission is 
to protect our homeland. The proposal to create a Department of 
Homeland Security is one more key step in the President's national 
strategy for homeland security.
    It is crucial that we take this historic step. At the beginning of 
the cold war, President Truman recognized the need to reorganize our 
national security institutions to meet the Soviet threat. We emerged 
victorious from that dangerous period thanks in part to President 
Truman's initiative. Today we are fighting a new war against a new 
enemy. President Bush recognizes that the threat we face from terrorism 
requires a reorganization of government similar in scale and urgency to 
the unification of the Defense Department and creation of the CIA and 
NSC.
    Currently, no Federal Government department has homeland security 
as its primary mission. In fact, responsibilities for homeland security 
are dispersed among more than 100 different government organizations. 
Creating a unified homeland security structure will align the efforts 
of many of these organizations and ensure that this crucial mission--
protecting our homeland--is the top priority and responsibility of one 
department and one Cabinet secretary.
    Immediately after last fall's attack, the President took decisive 
steps to protect America--from hardening cockpits and stockpiling 
vaccines to tightening our borders. The President used his legal 
authority to establish the White House Office of Homeland Security and 
the Homeland Security Council to ensure that our Federal response and 
protection efforts were coordinated and effective. The President also 
directed me, as Homeland Security Advisor, to study the Federal 
Government as a whole to determine if the current structure allows us 
to meet the threats of today while anticipating the unknown threats of 
tomorrow. After careful study of the current structure--coupled with 
the experience gained since September 11 and new information we have 
learned about our enemies while fighting a war--the President concluded 
that our nation needs a more unified homeland security structure.

The Department of Homeland Security
    The creation of the Department of Homeland Security would empower a 
single Cabinet official whose primary mission is to protect the 
American homeland from terrorism. The mission of the Department would 
be to:

    <bullet>  Prevent terrorist attacks within the United States;
    <bullet>  Reduce America's vulnerability to terrorism; and
    <bullet>  Minimize the damage and recover from attacks that do 
occur.

    The Department of Homeland Security would mobilize and focus the 
resources of the Federal Government, State and local governments, the 
private sector, and the American people to accomplish its mission. It 
would have a clear, efficient organizational structure with four 
divisions.

    <bullet>  Information Analysis and Infrastructure Protection
    <bullet>  Chemical, Biological, Radiological, and Nuclear 
Countermeasures
    <bullet>  Border and Transportation Security
    <bullet>  Emergency Preparedness and Response

Information Analysis and Infrastructure Protection
    The Information Analysis and Infrastructure Protection section of 
the Department of Homeland Security would complement the reforms on 
intelligence and information-sharing already underway at the FBI and 
the CIA. The Department would analyze information and intelligence for 
the purpose of understanding the terrorist threat to the American 
homeland and foreseeing potential terrorist threats against the 
homeland.
    Furthermore, the Department would comprehensively assess the 
vulnerability of America's key assets and critical infrastructures, 
including food and water systems, agriculture, health systems and 
emergency services, information and telecommunications, banking and 
finance, energy (electrical, nuclear, gas and oil, dams), 
transportation (air, road, rail, ports, waterways), the chemical and 
defense industries, postal and shipping entities, and national 
monuments and icons. Critically, the Department would integrate its own 
and others' threat analyses with its comprehensive vulnerability 
assessment for the purpose of identifying protective priorities and 
supporting protective steps to be taken by the Department, other 
Federal departments and agencies, State and local agencies, and the 
private sector. Working closely with State and local officials, other 
Federal agencies, and the private sector, the Department would help 
ensure that proper steps are taken to protect high-risk potential 
targets.
    In short, the Department would for the first time merge under one 
roof the capability to identify and assess threats to the homeland, map 
those threats against our vulnerabilities, issue timely warnings, and 
organize preventive or protective action to secure the homeland.

Chemical, Biological, Radiological and Nuclear Countermeasures
    The war against terrorism is also a war against the most deadly 
weapons known to mankind--chemical, biological, radiological and 
nuclear weapons. If the terrorists acquire these weapons, they will use 
them with consequences that could be far more devastating than those we 
suffered on September 11. Currently, our efforts to counter the threat 
of these weapons to the homeland are too few and too fragmented. We 
must launch a systematic national effort against these weapons that is 
equal to the threat they pose.
    The President's proposed legislation would accomplish this goal. It 
would authorize the Department of Homeland Security to lead the Federal 
Government's efforts in preparing for and responding to the full range 
of terrorist threats involving weapons of mass destruction. To do this, 
the Department would set national policy and establish guidelines for 
State and local governments. It would direct exercises and drills for 
Federal, State, and local chemical, biological, radiological, and 
nuclear (CBRN) attack response teams and plans. The result of this 
effort would be to consolidate and synchronize the disparate efforts of 
multiple Federal agencies currently scattered across several 
departments. This would create a single office whose primary mission is 
the critical task of protecting the United States from catastrophic 
terrorism.
    The Department would serve as a focal point for America's premier 
centers of excellence in the field. It would manage national efforts to 
develop diagnostics, vaccines, antibodies, antidotes, and other 
countermeasures. It would consolidate and prioritize the disparate 
homeland security related research and development programs currently 
scattered throughout the executive branch. It would also assist State 
and local public safety agencies by evaluating equipment and setting 
standards.

Border and Transportation Security
    Our No. 1 priority is preventing future terrorist attacks. Because 
terrorism is a global threat, we must attain complete control over whom 
and what enters the United States in order to achieve this priority. We 
must prevent foreign terrorists from entering our country and bringing 
in instruments of terror. At the same time, we must expedite the legal 
flow of people and goods on which our economy depends.
    Protecting our borders and controlling entry to the United States 
has always been the responsibility of the Federal Government. Yet, this 
responsibility is currently dispersed among more than five major 
government organizations in five different departments. Therefore, 
under the President's proposed legislation, the Department of Homeland 
Security would for the first time unify authority over major Federal 
security operations related to our borders, territorial waters, and 
transportation systems.
    The Department would assume responsibility for operational assets 
of the United States Coast Guard, the United States Customs Service, 
the Immigration and Naturalization Service (including the Border 
Patrol), the Animal and Plant Health Inspection Service, and the 
Transportation Security Administration. The Secretary of Homeland 
Security would have the authority to administer and enforce all 
immigration and nationality laws, including, through the Secretary of 
State, the visa issuance functions of consular officers. As a result, 
the Department would have sole responsibility for managing entry into 
the United States and protecting our transportation infrastructure. It 
would ensure that all aspects of border control, including the issuing 
of visas, are informed by a central information-sharing clearinghouse 
and compatible data bases.

Emergency Preparedness and Response
    Although our top priority is preventing future attacks, we cannot 
assume that we will always succeed. Therefore, we must also prepare to 
minimize the damage and recover from attacks that do occur. The 
President's proposed legislation would require the Department of 
Homeland Security to ensure the preparedness of our nation's emergency 
response professionals, provide the Federal Government's emergency 
response to terrorist attacks and natural disasters, and aid America's 
recovery.
    To fulfill these missions, the Department would oversee Federal 
Government assistance in the domestic disaster preparedness training of 
first responders and would coordinate the government's disaster 
response efforts. The Federal Emergency Management Agency (FEMA) would 
become a central component of the Department of Homeland Security, and 
the new Department would administer the grant programs for 
firefighters, police, emergency personnel, and citizen volunteers 
currently managed by FEMA, the Department of Justice, and the 
Department of Health and Human Services. The Department would manage 
certain crucial elements of the Federal Government's emergency response 
assets, such as the Strategic National Stockpile. In the case of an 
actual or threatened terrorist attack, major disaster, or other 
emergency, the Secretary of Homeland Security would have the authority 
to call on other response assets, including Energy's and the EPA's 
Nuclear Incident Response teams, as organizational units of the 
Department. Finally, the Department would integrate the Federal 
interagency emergency response plans into a single, comprehensive, 
governmentwide plan, and ensure that all response personnel have the 
equipment and capability to communicate with each other as necessary.

State/Local Government & Private Sector Coordination
    The Department of Homeland Security would consolidate and 
streamline relations on homeland security issues with the Federal 
Government for America's State and local governments, as well as the 
private sector. It would contain an intergovernmental affairs office to 
coordinate Federal homeland security programs with State and local 
officials. It would give State and local officials one primary contact 
instead of many when it comes to matters related to training, 
equipment, planning, and other critical needs such as emergency 
response.

Secret Service
    The Department of Homeland Security would incorporate the Secret 
Service, which would report directly to the Secretary. The Secret 
Service would remain intact and its primary mission will remain the 
protection of the President and other government leaders. The Secret 
Service would also continue to provide security for designated national 
events, as it did for the recent Olympics and the Super Bowl.

Non-Homeland Security Functions
    The Department of Homeland Security would have a number of 
functions that are not directly related to securing the homeland 
against terrorism. For instance, through FEMA, it would be responsible 
for mitigating the effects of natural disasters. Through the Coast 
Guard, it would be responsible for search and rescue, navigation, and 
other maritime functions. Several other border functions, such as drug 
interdiction operations and naturalization, and would also be performed 
by the new Department.

White House Office of Homeland Security and Homeland Security Council
    The President intends for the White House Office of Homeland 
Security and the Homeland Security Council to continue to play a key 
role, advising the President and coordinating a vastly simplified 
interagency process.

Making Americans Safer
    The Department of Homeland Security would make Americans safer 
because our nation would have:

    <bullet>  One department whose primary mission is to protect the 
American homeland;
    <bullet>  One department to secure our borders, transportation 
sector, ports, and critical infrastructure;
    <bullet>  One department to integrate threat analyses and 
vulnerability assessments;
    <bullet>  One department to coordinate communications with State 
and local governments, private industry, and the American people about 
threats and preparedness;
    <bullet>  One department to coordinate our efforts to protect the 
American people against bioterrorism and other weapons of mass 
destruction;
    <bullet>  One department to help train and equip for first 
responders;
    <bullet>  One department to manage Federal emergency response 
activities; and
    <bullet>  More security officers in the field working to stop 
terrorists and fewer resources in Washington managing duplicative and 
redundant activities that drain critical homeland security resources.

The New Department Would Improve Security Without Growing Government
    The Department of Homeland Security must be an agile, fast-paced, 
and responsive organization that takes advantage of 21st-century 
technology and management techniques to meet a 21st-century threat.
    The creation of a Department of Homeland Security would not 
``grow'' government. The new Department would be funded within the 
total moneys requested by the President in his fiscal year 2003 budget 
already before Congress for the existing components. In fact, the 
President's fiscal year 2003 budget will increase the resources for the 
component parts by $14 billion over the fiscal year 2002 budget. We 
expect that the cost of the new elements (such as the threat analysis 
unit and the State, local, and private sector coordination functions), 
as well as department-wide management and administration units, can be 
funded from savings achieved by eliminating redundancies inherent in 
the current structure.
    In order to respond to rapidly changing conditions, the Secretary 
would need to have great latitude in re-deploying resources, both human 
and financial. The Secretary should have broad reorganizational 
authority in order to enhance operational effectiveness, as needed. 
Moreover, the President will request for the Department significant 
flexibility in hiring processes, compensation systems and practices, 
and performance management to recruit, retain, and develop a motivated, 
high-performance and accountable workforce. Finally, the new Department 
should have flexible procurement policies to encourage innovation and 
rapid development and operation of critical technologies vital to 
securing the homeland.

Working Together to Create the Department of Homeland Security
    President Bush recognizes that only the Congress can create a new 
department of government. During his June 6 address to the Nation, the 
President asked Congress to join him in establishing a single, 
permanent department with an overriding and urgent mission: securing 
the homeland of America, and protecting the American people. I am here 
to ask, as the President did, that we move quickly. The need is urgent. 
Therefore, the President has asked Congress to pass his proposal this 
year, before the end of the congressional session.
    Preliminary planning for the new Department has already begun. The 
formal transition would begin once Congress acts on the President's 
proposed legislation and the President signs it into law. Under the 
President's plan, the new Department would be established by January 1, 
2003, with integration of some components occurring over a longer 
period of time. To avoid gaps in leadership coverage, the President's 
proposal contemplates that appointees who have already been confirmed 
by the Senate would be able to transfer to new positions without a 
second confirmation process.
    During this transition period, the Office of Homeland Security will 
maintain vigilance and continue to coordinate the other Federal 
agencies involved in homeland security. Until the Department of 
Homeland Security becomes fully operational, the proposed Department's 
designated components will continue to operate under existing chains of 
command.
    7. In conclusion, I suggest the principles that I have laid out 
here should be the basis on which S&T missions of the DHS should be 
carried out. I look forward to working with the Administration and you, 
Mr. Chairman, in building legislation to do so.

                                 <all>

</pre></body></html>
